No. 20-1143

In the Supreme Court of the United States
__________________
DENISE A. BADGEROW, PETITIONER
GREG WALTERS, ET AL., RESPONDENTS
__________________

__________________

__________________
EVE B. MASINTER
E. FREDRICK PREIS, JR.
MATTHEW M. MCCLUER
BREAZEALE, SACHSE &
WILSON, L.L.P.
909 Poydras St., Ste. 1500
New Orleans, LA 70112
(504) 584-5468
eve.masinter@bswllp.com
efp@bswllp.com
matthew.mccluer@bswllp.com
March 24, 2021

I

Should this Court grant certiorari to decide
whether federal question jurisdiction exists over a
removed state court action for vacatur of an arbitral
award, where (i) substantial issues of federal law are
present both on the face of the pleadings and in the
underlying arbitration claims, and (ii) resolution of
whether to apply
’s “look-through” analysis to
an action to vacate an arbitral award implicates no
broad federal interest and will not alter the outcome
of this case or future cases?

II

Introduction ................................................................ 1
Statement of the Case ................................................ 3
A. Statutory Background...................................... 3
B. Factual Background ......................................... 5
C. Procedural Background ................................... 6
Summary of the Argument ....................................... 11
Reasons for Denying the Petition ............................ 15
A. Review is premature as to whether
the look-through analysis applies to
petitions to confirm, vacate, or modify
an arbitration award ...................................... 15
B. Review will not be outcomedeterminative as dismissal of the action
to vacate is inevitable .................................... 23
C. Review is inappropriate as the
district court had continuing jurisdiction
over the action to vacate, despite
Petitioner’s forum shopping and attempts
to relitigate dismissed claims ........................ 28
Conclusion ................................................................. 34
Appendix A – District court order and
reasons (January 10, 2018) ...................................... 1a
Appendix B – District court order and
reasons (June 11, 2019) .......................................... 11a

III

UNITED STATES SUPREME COURT
,
149 U.S. 308 (1893) ............................................... 33
,
577 U.S. 153 (2016) ............................................... 32
,
486 U.S. 140 (1988) ............................................... 33
, 529 U.S. 193 (2000)....................... 13, 29
,
470 U.S. 213 (1985) ............................................. 3, 2
,
299 U.S. 109 (1936) ............................................... 27
,
552 U.S. 576 (2008) ............................................. 3, 4
, 211 U.S. 149 (1908) ................................... 3
,
284 U.S. 263 (1932) ................................... 13, 29, 30
,
478 U.S. 804 (1986) ............................................... 15
, 136 S. Ct. 1562 (2016) ........ 17, 25, 26, 27
,
465 U.S. 1 (1984) ..................................................... 3
,
556 U.S. 49 (2009) ..........................................

IV
UNITED STATES COURTS OF APPEALS

, 189 F.2d 219 (5th Cir. 1951) ...................... 27
,
294 F.3d 702 (5th Cir. 2002) ........................... 13, 30
,
888 F.3d 129 (5th Cir. 2018) ................................. 33
, 808 F.3d 694 (7th Cir. 2015) .............. 25
, 577 F.2d 264 (5th Cir. 1978) ............. 20
,
485 F.3d 597 (11th Cir. 2007) ............................... 21
,
258 F.3d 93 (2d Cir. 2001) ..................................... 25
,
832 F.3d 372 (2d Cir. 2016) ............................
752 F. App'x 102 (2d Cir. 2019) ....................... 16
,
448 F.3d 825 (5th Cir. 2006) ................................. 33
,
326 F.3d 1096 (9th Cir. 2003) ............................... 33
,
834 F.3d 242 (3d Cir. 2016) ................. 11, 17, 19, 21
,
803 F.3d 144 (3d Cir. 2015) ................................... 22
,
166 F.3d 1243 (D.C. Cir. 1999).............................. 18
,
922 F.3d 495, 498 (2d Cir. 2019) ..................... 15, 16

V
,
368 F.3d 1109 (9th Cir. 2004) ............................... 18
,
818 F.3d 285 (7th Cir. 2016) ..................... 17, 18, 21
,
909 F.3d 677 (4th Cir. 2018) ..........................
,
946 F.3d 837 (5th Cir. 2020) ..........................
, 159 F.3d 1209 (9th Cir. 1998) ........ 25
,
874 F.3d 1268 (11th Cir. 2017) ....................... 25, 27
,
666 F.3d 932 (5th Cir. 2012) ................................... 9
UNITED STATES DISTRICT COURTS
,
383 F. Supp. 3d 648 (E.D. La. 2019) ....................... 5
,
359 F. Supp. 2d 552 (E.D. Tex. 2005) ................... 26
, No. 16-CV-1694,
2017 WL 819494 (S.D.N.Y. Feb. 28, 2017) ........... 25
, No. 15-CV-384,
2017 WL 6061653 (S.D.N.Y. Dec. 6, 2017) ........... 16
,
432 F. Supp. 2d 648 (W.D. La. 2006) .............. 26, 31
STATE COURTS
, 831 So. 2d 474
(La. App. 5 Cir. 2002) ............................................ 22

VI

FEDERAL
15 U.S.C. § 78c (Exchange Act § 3) .......................... 25
15 U.S.C. § 78o (Exchange Act § 15) .............. 6, 24, 25
15 U.S.C. § 78q (Exchange Act § 17) ........................ 24
28 U.S.C. § 1331 ........................................ 4, 15, 17, 23
28 U.S.C. § 2283 ........................................................ 14
9 U.S.C. § 2.................................................................. 3
9 U.S.C. § 3...................................................... 7, 13, 30
9 U.S.C. § 4.........................................................passim
9 U.S.C. § 9.................................................................. 8
9 U.S.C. § 10 .............................................................. 21
STATE
La. Rev. Stat. § 15:1401 .............................................. 6
La. Rev. Stat. § 23:967 ............................................ 6, 8

FINRA Rule 2040................................................ 24, 25
SEC Rule 17a-3 ......................................................... 24

1

In the Supreme Court of the United States
__________________
DENISE A. BADGEROW, PETITIONER
GREG WALTERS, ET AL., RESPONDENTS
__________________

__________________

__________________
Respondents, Gregory Walters, Thomas Meyer,
and Ray Trosclair, respectfully submit this Brief in
Opposition to the Petition for a Writ of Certiorari
(“Writ”) by Petitioner, Denise A. Badgerow.

Petitioner asks this Court to review whether the
federal district court held subject matter jurisdiction
over her action to vacate an arbitration award, despite
the undisputed facts that her claims in the underlying
arbitration involved significant questions of federal
employment and securities law, and that her action to
vacate was facially reliant on federal securities laws
to adjudicate her claim that the arbitration award was
procured through fraud.
There are no exigent circumstances necessitating
this Court’s review, no significant federal policies at

2
issue, and multiple compelling reasons the Writ
should be denied.
First, review is premature. Circuit courts have
only split four-to-two on the question of whether this
Court’s decision in
—holding that courts may
“look through” a petition to compel arbitration under
§ 4 of the Federal Arbitration Act to the underlying
claims in the arbitration in determining whether
federal question jurisdiction exists—should apply
with equal force to petitions to confirm, vacate, or
modify arbitration awards under §§ 9–11 of the Act.
As such, there is a need for further deliberation and
analysis at the circuit court level before this Court
resolves the conflict.
Second, review will not alter the result reached
below and would amount to an advisory opinion by
this Court because the action to vacate, whether
reviewed by a state or federal court, must inevitably
be dismissed based on multiple procedural and
substantive grounds. For example, there is a parallel
suit currently pending in which the arbitration award
has already been confirmed by the same district judge,
which will not be undone regardless of what action is
taken in response to the Writ.
Third, review would undermine the district court’s
continuing jurisdiction and could lead to conflicting
rulings between the district court’s final judgment
confirming the award and a state court’s consideration
of the vacatur request if this case is remanded.
Accordingly, intervention by this Court would be
premature, moot, and inappropriate given the nature
of the legal issue presented, along with distinct factual
and procedural intricacies of the case that make it an
extremely poor vehicle for review.

3

A. Statutory Background
The Federal Arbitration Act (FAA), 9 U.S.C. §§ 1,
, was passed by Congress as a remedy for a
general “judicial indisposition to arbitration[,]”
, 552 U.S. 576, 581
(2008), for the purpose of establishing “a national
policy favoring arbitration[.]”
, 465 U.S. 1, 10 (1984);
, 470 U.S. 213, 219 (1985).
The FAA declares all arbitration agreements in
contracts “involving commerce” as “valid, irrevocable,
and enforceable,” 9 U.S.C. § 2, establishing a judicial
policy toward enforcement of such agreements that “is
equally binding on state and federal courts.”
, 556 U.S. 49, 59 (2009). The Act
“bestows no federal jurisdiction” over private
arbitration agreements, but instead authorizes
federal courts to order arbitration as a remedy when
there is otherwise “an independent jurisdictional
basis over the parties’ dispute.”
, 556 U.S. at 59
(quotations and alterations omitted).
establishes that while the “well-pleaded
complaint rule” normally authorizes the exercise of
federal-question jurisdiction only where the federal
question is raised on the face of the initial pleading,
,
211 U.S. 149, 152 (1908), § 4 of the Act provides an
exception allowing a federal court to adjudicate a
dispute over enforcement of an arbitration agreement
when the substantive matter to be arbitrated involves
a federal question. In other words, “a federal court
should determine its jurisdiction by ‘looking through

4
the petition to the parties’ underlying controversy.”
, 556 U.S. at 62. If “looking through” a petition
to compel arbitration to examine the claims in the
underlying arbitration demonstrates that the dispute
itself could have been brought in federal court, then
federal jurisdiction lies under 28 U.S.C. § 1331.
In addition to federal courts’ remedial powers to
compel arbitration under FAA § 4, federal courts also
maintain the right to review the arbitrator’s decision
and, for specified reasons set forth in the Act, to
confirm, vacate, or modify the award under §§ 9–11 of
, 552 U.S. at 588. Similar to a FAA
the Act.
§ 4 petition to compel arbitration, a petition to
confirm, vacate, or modify an award requires an
independent jurisdictional basis before the court may
exercise such powers.
, 556 U.S. at 59.
Circuit courts have diverged on the issue of
whether federal courts may “look through” a petition
to confirm, vacate or modify an arbitral award and
examine whether the underlying arbitration claims
involve substantial questions of federal law conferring
jurisdiction under 28 U.S.C. § 1331. Four circuits—
including the First, Second, Fourth, and Fifth (from
which this case arises)—have extended
and
held that federal questions in an underlying
arbitration that would otherwise satisfy the
“substantiality” test are sufficient to vest federal
courts with jurisdiction over an action to vacate or
modify, regardless of whether such federal question is
actually stated on the face of the petition. Only the
Third and Seventh Circuits have held that the lookthrough analysis should not extend to petitions to
vacate or confirm, and both have done so based on an

5
overly restrictive interpretation of the language of
FAA § 4 versus that of §§ 9–10.
B. Factual Background
Petitioner is a licensed financial advisor and a
registered member of the Financial Industry
Regulatory Authority (FINRA) who worked for
Walters, Meyer, Trosclair & Associates (“WMTA”), a
financial advising group operated by Respondents,
from January 6, 2014 until her termination on July
26, 2016.1 Pet’r’s App. 2a;
, 383 F. Supp. 3d 648, 651–52 (E.D. La. 2019).
Respondents are likewise licensed financial advisors
and, during Petitioner’s employment, operated as
franchisees of Ameriprise Financial Services, Inc.
(“Ameriprise”) working together under the practice
name WMTA in order to market their services as a
team.
Two of the Respondents, Gregory Walters
and Thomas Meyer, also owned and operated REJ
Properties, Inc. (“REJ”), an entity that employed
Petitioner and paid her compensation, as well as the
other operating expenses of WMTA.
at 652.
Petitioner signed two employment agreements,
one upon hiring and the second after she became
licensed as an Associate Financial Advisor (“AFA”) in
March 2014. Pet’r’s App. 3a; ROA.19-30766.195–196,
151–166. Both agreements included provisions
1

Petitioner was terminated from WMTA in July 2016 based on a
pattern of behavior that demonstrated to Respondents that her
personality was not compatible with other employees of the
practice group and that the controversies she instigated were
causing distraction in the workplace and fostering a lessfunctional work environment.
, 383 F. Supp. 3d at 656,
659–60.

6
requiring arbitration of any claim against Ameriprise
or Respondents arising out of her employment, and
stating that any arbitration would be conducted
pursuant to the FAA. Pet’r’s App. 3a; ROA.1930766.157–158, 165. Petitioner also signed a standard
form known as a “U4” required by FINRA before a
licensed advisor can conduct business in a specific
jurisdiction, which further required arbitration of any
dispute between her and her firm. ROA.1930766.223–237.
C. Procedural Background
In October 2016, Petitioner commenced an
arbitration proceeding against Respondents and
Ameriprise through FINRA. Pet’r’s App. 3a; ROA.1930766.1534–1542. Petitioner alleged,
, that
Respondents violated bookkeeping and other
requirements of the Securities and Exchange Act of
1934 (“Exchange Act”), SEC regulations and FINRA
rules, breached and/or contractually interfered with
the terms of her employment agreement with WMTA,
and terminated her in violation of the Louisiana
Whistleblower Protection Act (LWPA), La. Rev. Stat.
§ 23:967, and the Louisiana Unfair Trade Practices
Act (LUTPA), La. Rev. Stat. § 15:1401,
Pet’r’s
App. 3a; ROA 1534–1542.
In September 2017, while the FINRA arbitration
was pending, Petitioner filed suit in the Eastern
District of Louisiana against REJ as her former
employer and Ameriprise as an alleged joint
employer, in the matter
E.D. La., Civ. No. 2:17-cv-09492 (“REJ Suit”). ROA
19.30584.23–36. In the REJ Suit, Petitioner brought

7
individual and class claims for discrimination,
harassment, unequal pay, and retaliation under Title
VII, the Equal Pay Act, and Louisiana employment
statutes. ROA.19-30584.30–35.
Ameriprise moved, pursuant to FAA § 4, to compel
arbitration of the joint employer claims and REJ
moved to compel arbitration of the claims against it.
ROA.19-30584.101–128, 160–184. On January 10,
2018, the district court granted Ameriprise’s motion
to compel arbitration but denied REJ’s motion, finding
that REJ was not a signatory to the arbitration
agreements. As mandated by FAA § 3, the district
court stayed the claims against Ameriprise in the REJ
Suit pending the arbitration. Resp’t’s App. 1a–10a.
In December 2018, after a two-day arbitration
hearing before a panel of three FINRA arbitrators
that involved extensive presentation of witnesses and
evidence, the FINRA arbitrators issued an award
finding no violations of federal securities laws, no joint
employer liability as to Ameriprise, and dismissing all
of Petitioner’s claims with prejudice. Pet’r’s App. 3a,
12a; Resp’t’s App. 11a; ROA.19-30584. 128–137.
After the arbitration award was issued,
Ameriprise moved to confirm the award in April 2019.
ROA.19-30584.5507–5564. In May 2019, while
Ameriprise’s motion to confirm was pending in the
REJ Suit, Petitioner filed a separate action in
Louisiana state court for Orleans Parish against
Respondents, seeking to vacate the arbitration award
based on her unsupported claim that the award was
procured through fraud or undue means. Pet’r’s App.
13a; ROA.19-30766.21–42. In a blatant attempt to
avoid removal to federal court, Petitioner artfully
pleaded her state-court action to vacate in order to

8
reference only the Louisiana arbitration statute,
rather than the FAA, and she alleged fraud solely in
connection with her state law whistleblower claim
under the LWPA. Pet’r’s App. 15a–16a.
Respondents removed the state court action to the
Eastern District of Louisiana in May 2019 based on
federal question jurisdiction, citing the multiple,
significant issues of federal securities law that formed
the bases of Petitioner’s whistleblower claim that was
heard in the arbitration, as well as her securitiesbased fraud allegations on the face of the state court
pleadings. ROA.19-30766.7–19. The suit was
transferred to the same district judge presiding over
the REJ Suit as a related case.2 Respondents filed a
motion to confirm the arbitration award, and
Petitioner moved to remand the case to state court,
arguing that the district court lacked subject matter
jurisdiction. ROA.19-30766.193–200, 1195–1224.
On June 12, 2019, the district court granted
Ameriprise’s motion to confirm the arbitration award
in the REJ Suit and held that “[t]he arbitration award
is confirmed as to all parties to that proceeding” in
accordance with the dictates of FAA § 9. ROA.1930584.5851. This significant ruling is conspicuously
absent from Petitioner’s recitation of the factual
background, and instead the existence of the REJ Suit

2

Petitioner also filed a separate Louisiana state court suit in
Lafourche Parish against Respondents, alleging the same claims
dismissed in the FINRA arbitration. Pet’r’s App. 13a. That court
dismissed those claims with prejudice as
, which
ruling is currently on appeal to the Louisiana First Circuit Court
of Appeal. That separate state action is styled
17th Jud. Dist. Ct., Docket No. C128185; La. App. 1 Cir., Docket No. 138,185.

9
is merely noted in the “related proceedings” section of
the Writ.
On June 26, 2019, the district judge denied
Petitioner’s motion to remand, dismissed her action to
vacate the arbitration award with prejudice, and
granted Respondents’ motion to confirm the award.
ROA.19-30766.1457–1462. The district court held
that under
’s look-through analysis—which at
the time had not been extended by the Fifth Circuit
for §§ 9–11 petitions, as the district judge noted in his
ruling—federal question jurisdiction existed based on
the federal employment claims discussed in the
arbitration award.3 ROA.19-30766.1459–1461.
As a result, the district court held that federal
claims were manifest in the underlying arbitration,
that those federal claims were included in the award,
and thus, her attempts to artfully plead around
.
federal jurisdiction were unavailing under
Pet’r’s App. 15a–16a. The district judge reiterated his
previous ruling, in confirming the arbitration award
in favor of Ameriprise, that there was no factual
support for Petitioner’s claim that the award was
procured by fraud or undue means and that her
arguments on this point were “legally frivolous” and
3

In 2012, the Fifth Circuit first formally applied the
lookthrough analysis to a motion to compel arbitration under FAA
§ 4.
, 666 F.3d 932 (5th Cir. 2012). There, the Fifth Circuit
held that in determining whether federal jurisdiction exists over
a petition to compel arbitration, “the district court must look to
the ‘actual ‘controversy between the parties,’ as they have framed
it.”
(citing
, 129 S. Ct at 1275). Notably, the court
further held that “[t]he relevant question is whether the whole
controversy between the parties—not just a piece broken off from
the that controversy—is one over which federal courts would
have jurisdiction.”
(citing
, 129 S. Ct. at 1276).

10
“utterly absurd.” Pet’r’s App. 13a; Resp’t’s App. 14a.
In September 2019, Petitioner noticed her appeal of
that decision to the Fifth Circuit, yet she appealed
only the district court’s jurisdiction over the removed
action to vacate and not the dismissal on the merits of
her vacatur request or the confirmation of the
arbitration award. Pet’r’s App. 2a, 4a.
In an opinion issued on September 25, 2020, a
three-judge panel of the Fifth Circuit unanimously
affirmed the district court’s ruling and held that the
decision to apply the look-through analysis was
proper, relying on
, 946 F.3d 837, 843 (5th
Cir. 2020), in which the Fifth Circuit had recently
joined the First, Second, and Fourth Circuits in
extending
’s rationale to petitions to confirm,
vacate or modify arbitration awards brought under
FAA §§ 9–11.4 Pet’r’s App. 1a–10a. The Fifth Circuit
further held that Petitioner’s joint employer claim
against Ameriprise was based on federal employment
laws, which conferred federal-question jurisdiction
over her action to vacate the award and supplemental
jurisdiction over all of her related state-law claims.
Pet’r’s App. 9a–10a. Finally, the Fifth Circuit
determined that as Petitioner only challenged the
district court’s subject matter jurisdiction and not the
merits of the order denying vacatur, confirming the
award, and dismissing Petitioner’s claims with
4

Despite Petitioner’s reliance on a brief dissent by Judge James
Ho in
—notably, there was no dissent in the Fifth
Circuit’s ruling below—Judge Ho’s dissent merely adopted the
minority view of the Third and Seventh Circuits that FAA § 4
petitions should be treated differently for jurisdictional purposes
than petitions under §§ 9–11, which arguments were cogently
.
analyzed and rejected by the majority in

11
prejudice, the district court’s judgment was affirmed
in all respects. Pet’r’s App. 10a.

The Writ should be denied because this suit is not
the proper vehicle for resolution of the current circuit
split on the issue of application of
’s lookthrough analysis to motions to vacate, modify, or
confirm arbitration awards under the FAA. This is
true for three reasons.
1. The issue raised in the Writ has not been subject
to sufficient analysis and opinion at the circuit court
level. Only six of the twelve circuits and a small
collection of federal district courts have ruled on the
—which expressly
propriety of extending
applies to motions to compel under FAA § 4—to
motions to confirm, vacate, or modify under §§ 9–11 of
the FAA. This Court previously denied review of this
exact question in
, 834 F.3d 242 (3d Cir. 2016). Since
, the only three circuit courts to consider this
as an issue of first impression have sided with the
decision below.
, 946 F.3d 837;
, 852 F.3d
36 (1st Cir. 2017);
,
909 F.3d 677 (4th Cir. 2018). In light of this trend—
which currently yields a four-to-two circuit split of
postdecisions in favor of applying lookthrough to petitions to confirm, vacate or modify—
further percolation is warranted to see whether the
conflict resolves itself without this Court’s
intervention.

12
2. Resolution of the issues posed in the Writ would
not be outcome-determinative on the question of
whether the district court properly exercised federal
question jurisdiction over this suit. Regardless of
whether this Court decides the propriety of “looking
through” Petitioner’s state-court action to her claims
in the underlying arbitration, there are substantial
issues of federal law present on the face of the award
that was attached to and formed part of the state court
pleadings. Thus, even under a facial analysis of the
four corners of the pleadings, there are federal
questions supporting the district court’s jurisdiction.
Moreover, the district court has twice confirmed
the arbitration award—first in the REJ Suit and
second in the proceedings below—and the former
ruling would operate as a bar to relitigation of
Petitioner’s vacatur petition, even if this Court were
to reverse and hold that the look-through analysis
should not have been applied by the lower courts in
determining whether there was federal jurisdiction
over this case.
The district court held that Petitioner’s sole
argument for vacatur—her allegation that the award
was procured through fraud or undue means—was
frivolous and factually baseless. That determination
was made both in the suit below and in the REJ Suit,
where the district court’s jurisdiction was never
challenged and the confirmation of the award never
appealed. Consequently, the confirmation of the
award is final and bars relitigation on the issue of
fraud, making this case a poor vehicle for review since
reversal would not alter the district court’s
confirmation of the award and rejection of Petitioner’s
fraud and undue means allegations in her action to

13
vacate, and thus would amount to an advisory opinion
by this Court.
3. There are also distinct policy reasons why the
Writ should be denied based on the predicate facts of
the proceedings below. Petitioner originally brought
her federal employment claims in federal court in the
REJ Suit—before the same district court and judge—
and the district court ordered arbitration of her Title
VII and EPA joint employer claims upon the motion of
Ameriprise. Pursuant to FAA § 3, the suit was stayed
as to the claims against Ameriprise pending the
outcome of the arbitration. Because the district court
compelled arbitration of the federal employment law
claims, it had continuing jurisdiction over any postaward relief emanating from the arbitration,
including authority to confirm, vacate or modify the
award.
, 529 U.S. 193 (2000) (citing
, 284 U.S. 263 (1932));
,
909 F.3d 677;
, 852 F.3d 36l;
, 832 F.3d 372, 382 (2d Cir.
2016);
, 294
F.3d 702, 714 (5th Cir. 2002) (Dennis, J., concurring).
After the arbitration panel dismissed all of
Petitioner’s claims, instead of moving to vacate the
award before the district court that had ordered the
joint employer claims to arbitration and before which
a motion to confirm the award was pending, Petitioner
filed an action in state court seeking to vacate the
arbitration award. As exhibited by the proceedings
below, Petitioner attempted to divest the district
court’s authority to adjudicate federal law claims that
were originally brought there and compelled to
arbitration, simply because Petitioner disagreed with

14
the decisions reached by the FINRA arbitration panel
in dismissing her claims and the district court in
confirming the award.
Through the Writ, Petitioner seeks to remediate
her failures to appeal the merits of the district court’s
two rulings confirming the arbitration award in the
REJ Suit and in the proceedings below. Petitioner’s
legal gamesmanship and forum shopping intended to
overturn the well-reasoned rulings of the arbitration
panel in dismissing her claims against Respondents,
and of the district court in rejecting her vacatur
arguments and confirming the arbitration award,
should not be rewarded.
Additionally, if this Court were to reverse and find
a lack of subject matter jurisdiction, the action to
vacate would be remanded to state court, thus
fostering a collateral attack on a final federal court
judgment confirming the award and finding no valid
ground for vacatur in the REJ Suit. Alternatively,
even if the state court agreed that it was bound by the
effect of the district court’s judgment, all
that would be accomplished by this Court’s reversal
would be further protracted proceedings in state court
leading to an identical result of dismissal of the action
to vacate. Reversal would also lead to further
protracted litigation in federal and state court, as
Respondents would be forced to move the district court
in the REJ Suit to enjoin the state proceedings under
28 U.S.C. § 2283 to prevent relitigation of matters
addressed by its final judgment confirming the award.
The Writ should be denied in order to avoid
contributing to the existing legal and procedural
quagmire that Petitioner has continued to perpetuate
in multiple fora.

15

A. Review is premature as to whether the lookthrough analysis applies to petitions to confirm,
vacate, or modify an arbitration award
In
, this Court held that federal question
jurisdiction under 28 U.S.C. § 1331 exists over a
motion to compel arbitration under FAA § 4 where
“the entire, actual controversy between the parties, as
they have framed it, could be litigated in federal
, 556 U.S. at 66. Thus, federal courts
court.”
have subject matter jurisdiction over a motion to
compel arbitration when it states a claim “arising
under” federal law—which has been interpreted
broadly to encompass “all cases in which a federal
question is ‘an ingredient’ of the action.”
, 478 U.S. 804,
807 (1986) (additional citation omitted).
After
, a majority of the circuits have
concluded that the look-through analysis should be
extended to motions to confirm, vacate, or modify
arbitration awards under FAA §§ 9–11.
, 946 F.3d 837,
843 (5th Cir. 2020) (applying look-through analysis to
cross motions to confirm and vacate arbitration
award);
, 922 F.3d 495, 498 (2d
Cir. 2019) (motion to confirm);
, 909 F.3d 677, 682 (4th Cir. 2018) (motion
to vacate or modify);
852 F.3d 36, 47 (1st Cir. 2017)
(motion to vacate or modify);
, 832 F.3d 372, 382 (2d Cir. 2016) (motion to
vacate or modify).

16
In
as in the case
, the underlying
arbitration included claims under the Exchange Act
and SEC rules.
, 832 F.3d at 380–81 (
, 556 U.S. at 65). The Second Circuit extended
based on the federal interest in maintaining a
consistent jurisdictional framework across different
statutory provisions and avoiding the “curious
practical consequences” of permitting a federal court’s
jurisdiction over an action to vacate or modify an
arbitration award only where a federal question is
presented on the face of the pleadings.
After holding that the look-through analysis
applied to the motion to vacate at issue, the Second
Circuit remanded the case to the district court.
On
remand, the trial court exercised federal question
jurisdiction and denied the motion to vacate or modify.
, No. 15-CV-384,
2017 WL 6061653, at *6 (S.D.N.Y. Dec. 6, 2017),
752 F. App'x 102 (2d Cir. 2019). The Second Circuit
then affirmed the trial court’s decision on February
12, 2019.
, 752 F.
5
App'x 102, 103 (2d Cir. 2019).
, the First Circuit considered a
In
motion to vacate or modify a FINRA arbitration award
that had dismissed claims arising under § 10(b) of the
Exchange Act, SEC Rule 10b-5, and Puerto Rico
securities laws.
, 852 F.3d at 40. The
First Circuit utilized the look-through approach to
examine the claims in the arbitration and concluded
5

In a 2019 decision, the Second Circuit further extended
’s
look-through analysis to a motion to confirm an arbitration
award and found that the federal trademark claims in the
underlying arbitration conferred federal question jurisdiction to
rule on the motion to confirm.
, 922 F.3d at 498.

17
that “there is no question that claimants' claims
involving federal securities laws arise under federal
law ”
at 47.
While acknowledging the earlier rulings of the
Seventh Circuit in
, 818 F.3d 285 (7th Cir. 2016) and the
Third Circuit in
, 834 F.3d 242 (3d Cir. 2016), both of
which held that look-through does not apply to
petitions to confirm or vacate, the court in
concluded that the slight differences in the
text of FAA § 4 and §§ 9–11 were not a sufficient basis
to interpret the statutes differently. . at 45. The
textual variation arises from the presence of the
phrase “save for such [arbitration] agreement” in § 4,
which is not replicated in §§ 9-11. In rejecting the
analyses of
and
, the court cited
this Court’s holding in
, 136 S. Ct. 1562, 1570 (2016),
which construed “completely different language” in
§ 27 of the Exchange Act and 28 U.S.C. § 1331 to have
identical meanings for purposes of establishing
federal jurisdiction.
at 45.
Further, the First Circuit noted that Congress
clearly intended federal jurisdiction over motions to
confirm, vacate, or modify because Congress added
these post-award remedies to the statutory text of the
FAA.
, 852 F.3d at 46. Finally, the First
Circuit found that its ruling fostered a “unitary
jurisdictional approach to the FAA” and comported
with
’s focus on avoiding inconsistent
jurisdictional decisions, which would surely result if a
federal court were to hear a motion to compel
arbitration but subsequent motions to confirm, vacate

18
or modify the award were required to be brought in
state court.
at 47.
Following
, the Fourth Circuit also
extended
’s look-through analysis to a motion to
vacate an arbitration award in
, 909 F.3d 677, 682 (4th Cir. 2018), holding
that this result supported the policy goals of the FAA
and the overriding judicial interest in avoiding
inconsistencies in litigation: “[a]pplying the ‘look
through’ approach to § 4 but not to § 10 or § 11 would
create just such a tension by subjecting the Act’s preaward and post-award remedies to different
jurisdictional inquiries, potentially by different
courts, during different stages of the same
, 909 F.3d at 684. As a
arbitration.”
result, the Fourth Circuit held that the pre-award and
post-award provisions of the FAA should be
interpreted consistently in order to give proper effect
to the statute and promote its purpose of favoring
arbitration.
Applying the look-through analysis,
the Fourth Circuit determined that the arbitration
claims arose under the Stored Communications Act,
clearly requiring resort to federal law and vesting the
court with federal question jurisdiction.
Only two circuit courts have declined to extend the
look-through analysis to petitions under FAA §§ 9–11,
and both did so based on an overly textual reading of
the Act and
.6
818 F.3d at 288;
6

Petitioner refers to two additional circuit decisions in support
of the minority view,
, 368
F.3d 1109 (9th Cir. 2004) and
, 166 F.3d 1243 (D.C. Cir. 1999), but as these cases
were issued prior to this Court’s ruling in
, their holdings
have arguably been abrogated, have little weight on the issue,
and have not been addressed in depth in any of the cited post-

19
, 834 F.3d at 254. As the Fourth Circuit
stated in
:
While some courts have reasoned that
the FAA’s policy of enforcing valid
agreements to arbitrate suggests that
the federal interest in compelling
arbitration under § 4 is greater than the
federal interest in confirming, vacating,
or modifying awards under §§ 9–11 . . .
we do not agree. The issues addressed by
§ 4 and §§ 9–11 are completely
intertwined in carrying out Congress’s
decision to provide a set of federal rules
governing the arbitration process.
Privileging § 4 petitions over § 10 and §
11 motions for jurisdictional purposes
thus reflects too narrow a view of the
FAA’s comprehensive role with respect
to arbitration.
, 909 F.3d at 683–84.
Most recently, in
, 946 F.3d 837 (5th Cir.
2020), the Fifth Circuit followed the First, Second, and
Fourth Circuits’ majority view that look-through
should be applied with equal force to petitions to
compel under § 4 and to petitions to confirm, vacate,
or modify under §§ 9–11, and expressly rejected the
minority view that the text of the FAA prescribes a
different result. The Fifth Circuit opined that while
the “save for such [arbitration] agreement” language
decisions. Most significantly, these circuits have not
reaffirmed their prerulings, and thus
and
are not properly part of the postcircuit split on the lookthrough issue.

20
is absent from FAA §§ 9–11, this does not compel a
contrary interpretation because the FAA is to be
interpreted as “a single, comprehensive statutory
scheme” and “this principle of uniformity dictates
using the same approach for determining jurisdiction
under each section of the statute.”
at 842 (quoting
, 577 F.2d 264, 268–69 (5th Cir. 1978). Further,
the Fifth Circuit noted that the rule that the FAA
neither provides an independent basis for federal
jurisdiction, nor does it expand existing grounds for
jurisdiction, further militates against the minority
view restricting the use of look-through to petitions to
at 842–43.
compel arbitration.
Echoing the Second Circuit’s analysis from
, the Fifth Circuit opined that the minority
view conflicts with traditional uniform interpretation
and non-expansion principles under the FAA by
providing for a different, more expansive view of
federal court jurisdiction under § 4 versus other
provisions of the Act.
at 843. The Fifth Circuit thus
concluded that “the Supreme Court’s guidance in
and the background principles animating its
jurisdictional analysis under the FAA require the use
of the same look-through approach for post-award
motions as those brought pre-award under section 4.”
at 842.7
7

In dissent in
, Judge Ho recited the same hyper-textual
justifications from the Third and Seventh Circuit rulings for
limiting federal jurisdiction over motions to confirm, vacate, or
modify, arguing that look-through should not apply to such
motions due to the missing “save for” language that is present in
FAA § 4.
at 846. He dismissed out-of-hand the majority’s
concern that his narrow reading of §§ 9–11 could create a
“perverse incentive for cautious practitioners to first file in

21
This limited jurisprudence simply has not provided
sufficient opportunity for judicial development and
divergence on the issue presented in the Writ to create
an entrenched split among the circuits meriting this
Court’s intervention and review.8 Only half of the
circuits have weighed in on whether
should be
extended to petitions to confirm, vacate, or modify
arbitration awards, and further percolation and
deliberation is needed to ascertain whether this issue
is worthy of this Court’s review or if the split will
naturally resolve itself.
Notably, in the past four years the First, Fourth
and Fifth Circuits have adopted the rationale of the
to form the current
Second Circuit in
majority viewpoint, while no circuit has taken the
alternative position since the 2016 decisions in
and
from the Third and Seventh
9
Circuits, respectively. If the present trend continues,
federal court and be referred or compelled to arbitration, all for
the sole purpose of preserving federal jurisdiction to later review
the award.”
at 843 (citing
, 832 F.3d at 387).
8
To this point, the Eleventh Circuit has not issued any postdecision addressing whether look-through should be
applied to petitions to confirm, vacate or modify arbitration
awards under the FAA. Yet, two years prior to
, that court
“approved the ‘look through’ approach as advanced in Circuit
precedent” but the judge authoring the unanimous opinion
stated in a special concurrence that “were he writing on a clean
slate, he would reject the ‘look through’ approach.”
,
556 U.S. at 57 n.6 (citing
, 485
F.3d 597 (605–06 (11th Cir. 2007)). The lack of definition and
certainty on the look-through question, even within individual
circuits, demonstrates that this issue is not ripe for review.
9
The Third Circuit in
summarily rejected an earlier
Third Circuit decision that actually utilized the look-through
analysis to find federal question jurisdiction over a petition to
vacate under FAA § 10.
, 834 F.3d at 251 (citing

22
any split among the circuits may be eradicated as
more jurists come to agree with the well-reasoned
majority rule established in
,
, and
. Thus, review by this Court
is premature.
Review is further unwarranted because the
question presented will not meaningfully impact how
petitions to compel, vacate or modify arbitration
awards are adjudicated in future cases. The question
applies to this type of case affects
of whether
only which courts—state or federal—may hear
petitions to confirm, vacate or modify an arbitration
award based on the existence of substantial federal
questions in the underlying arbitration.
Regardless of whether look-through applies, state
courts generally apply the same substantive review
standards that apply in federal court under the FAA,
with most states (including Louisiana) having
adopted some version of the Uniform Arbitration Act,
which prescribes standards for vacatur identical to
those set forth in § 10. As a result, resolving the
question presented here would have little or no
practical significance, as the Fifth Circuit itself noted
below: “[E]ven if the Louisiana Arbitration Law were
to apply, ‘Louisiana courts look to federal law in
interpreting the Louisiana Arbitration Law because it
is virtually identical to the [FAA.]’
, 831 So.
2d 474, 476 (La. App. 2002).” Pet’r’s App. 10a.
, 803 F.3d
144, 147 n.5 (3d Cir. 2015)). It is quite possible that as the issue
continues to percolate—as it should—the Third Circuit may
reverse itself again and join the postmajority extending
look-through to FAA §§ 9–11 petitions.

23
B. Review will not be outcome-determinative as
dismissal of the action to vacate is inevitable
Irrespective of any circuit split on the issue of lookthrough, there are clear and unavoidable defects in
Petitioner’s arguments, from both substantive and
procedural perspectives, that make this case an
exceedingly poor candidate for certiorari.10
First, regardless of whether look-through applies,
Petitioner’s state court pleadings
raise
multiple substantial questions of federal law that
create jurisdiction under 28 U.S.C. § 1331. As the
district court and Fifth Circuit held, Petitioner’s joint
employer claim against Ameriprise required the
application and interpretation of federal employment
laws, including Title VII and the EPA. ROA.1930766.1457–1462. While the district court analyzed
this claim under the rubric of looking through
Petitioner’s state court action, Respondents posited in
their briefing at the district court and appellate levels
that the arbitration award was attached to and
incorporated into Petitioner’s state court petition, and
therefore those same federal questions were present
on the face of the pleadings. ROA.19-30766.985–992.
10

In addition to the substantive flaws discussed in this section,
review is unnecessary since it will not alter the district judge’s
determination in his June 12, 2019 order in the REJ Suit that
the action to vacate the arbitration award was facially untimely
under FAA § 12 since it was not filed and served within three
months after the award was issued by the FINRA arbitrators.
Resp’t’s App. 16a. Petitioner did not appeal this determination
and it is therefore final. Given Petitioner’s failure to file within
the deadline under the FAA, it is highly unlikely any state court
would consider the merits of her untimely petition, even if it was
determined that the district court lacked subject matter
jurisdiction.

24
Second, Petitioner’s sole argument for vacatur of
the arbitration award—that it was procured through
fraud or undue means because Respondents allegedly
falsely represented to the FINRA panel that their
method of compensating AFAs through a non-brokerdealer entity complied with the Exchange Act and
FINRA Rule 2040—is present on the face of the statecourt action and does not require resort to a lookthrough approach. ROA.19-30766.21–41.
Third, the action to vacate, while artfully pleaded,
necessarily relies on an interpretation and application
of federal securities laws. Petitioner alleged that
Respondents committed fraud with regard to
Petitioner’s state-law whistleblower claim in the
arbitration. Resp’t’s App. 15a; ROA.19-30766.33–37.
Specifically, she claimed that Respondents violated
§ 15 of the Exchange Act, SEC Rule 17a-3, and FINRA
Rule 2040 governing payments by registered members
of FINRA to unregistered persons or entities. ROA.1930766.24–25. She also argued that Respondents
violated record-keeping requirements under § 17 of
the Exchange Act because she had no written
employment agreement. ROA.19-30766.25–27. The
FINRA panel of arbitrators addressed these alleged
violations in its award and obviously analyzed and
considered the requirements of these federal
securities laws in reaching their decision. ROA.1930766.129–132.
The claimed violations of FINRA Rule 2040 and
SEC Rule 17a-3 (17 C.F.R. § 240.17a-3)—both of
which were integral to Petitioner’s whistleblower
claim and, by extension, her fraud allegation in the
action to vacate—derive directly from the Exchange
Act’s provisions regarding the manner in which

25
broker-dealers pay commissions and maintain
records.
, No. 16-CV1694, 2017 WL 819494, at *9 (S.D.N.Y. Feb. 28, 2017)
(“Whether a payment to an unregistered individual
runs afoul of FINRA Rule 2040 turns, by the plain
terms of the Rule, on whether that individual, ‘by
reason of receipt of any such payment[ ] and the
activities related thereto,’ is ‘required’ to be ‘registered
as a broker-dealer under Section 15(a) of the
FINRA Rule 2040; 15 U.S.C.
Exchange Act.’” (
§ 78c(a)(4)(A), (5)(A)).
Numerous federal courts have held that §§ 15 and
17 of the Exchange Act and FINRA Rule 2040
constitute substantial questions of federal law
supporting federal question jurisdiction.
, 874 F.3d
1268, 1275 (11th Cir. 2017) (holding that § 15 of the
Exchange Act and FINRA rules constituted
substantial federal questions meriting the exercise of
federal question jurisdiction);
, 808 F.3d 694,
702 (7th Cir. 2015);
,
258 F.3d 93, 101 (2d Cir. 2001);
, 159 F.3d 1209, 1212
(9th Cir. 1998),
, 136 S. Ct. 1562 (all finding federal subject
matter jurisdiction of claims of failures to exercise
duties established by the Exchange Act).
By alleging that Respondents fraudulently
misrepresented the scope of their duties and
responsibilities under federal securities laws to the
arbitration panel, Petitioner turned those same
federal laws into a necessary ingredient of her action
to vacate and removed any doubt that her action to

26
vacate was both premised and dependent on
interpretation of federal law.
This Court has held that in cases involving alleged
violations of the Exchange Act, for purpose of
determining federal question jurisdiction, courts must
apply the traditional “arising under” to determine
whether federal law is “an ingredient of the action.”
, 136 S. Ct. at 1570. In
,
this Court held that if “a state-law action necessarily
depends on a showing that the defendant breached the
Exchange Act, then that suit could also fall within
§ 27’s compass” in reference to the provision of the
Exchange Act vesting federal courts with exclusive
at 1569. The Court
jurisdiction over its provisions.
held that such a case, “even though asserting a statecreated claim, is also ‘brought to enforce’ a duty
created by the Exchange Act.”
Moreover, courts will pierce artfully pleaded
petitions where the “resolution of the state law cause
of action ‘necessarily turn[s] on some construction of
federal law.’”
, 432 F. Supp. 2d 648, 650–51 (W.D. La. 2006).
In
, the district court denied a motion to
remand after holding that plaintiff’s artful pleading to
avoid removal by omitting references to federal
healthcare laws that were required to resolve the
state law claims amounted to forum manipulation.
at 651;
, 136 S. Ct. at 1569
(finding federal question jurisdiction existed where “a
state-law action necessarily depends on a showing
that the defendant breached the Exchange Act[.]”);
, 359 F. Supp. 2d 552, 556
(E.D. Tex. 2005) (holding a state law claim necessarily
raises a federal question supporting federal

27
jurisdiction if the “federal right or obligation, as
incorporated within a state law claim or claims, is
‘such that it will be supported if the Constitution or
laws of the United States are given one construction
or effect, and defeated if they receive another.’”)
(
, 189
F.2d 219, 222 (5th Cir. 1951), and
, 299 U.S. 109, 112 (1936)).
In exactly the same way, the Exchange Act
provisions, SEC Regulations and FINRA rules cited in
the action to vacate are an integral part of and
underpin Petitioner’s state law whistleblower claim
that was the central focus of her action to vacate.11 As
, Petitioner’s allegations that
in
Respondents violated the Exchange Act were the
cornerstone of her claim for vacating the arbitration
award and required interpretation and analysis of
federal securities laws.
In
, the Eleventh Circuit held that the
plaintiff’s state law claims were rooted in federal
securities law and affirmed the denial of a motion to
remand the suit to state court, stating: “[B]ecause
those rules and regulations are promulgated
according to the Exchange Act’s mandates, their
interpretation unavoidably involves answering
federal questions.”
at 1275. The court further held
that permitting state court jurisdiction over FINRA
rules and the Exchange Act “would undercut the
11

As the district judge aptly noted, Petitioner’s reliance on the
Louisiana arbitration statute and her attempt to limit her
vacatur arguments to the state law whistleblower claim was
nothing more than artful pleading in order to avoid removal.
Pet’r’s App. 15a–16a.

28
distinctly federal nature of the Exchange Act,” and
federal courts’ “front-line role in enforcing federal
securities laws[.]”
at 1277.
As the Fifth Circuit correctly held in its ruling
below, the “look-through analysis here shows that
Badgerow’s claims against Ameriprise and the
principals all arose from the same common nucleus of
operative fact,” including “her state law . . .
whistleblower claims, the subject of her Louisiana
motion to vacate.” Pet’r’s App. 9a.
A fitting illustration of this “common nucleus”
rationale is that Petitioner’s claims against
Respondents resemble a Russian nesting doll, with
her federal securities and employment claims in the
center, surrounded by the state-law whistleblower
claim alleged in the arbitration, further encased by
the fraud claim raised in the action to vacate, which
Petitioner argues is not subject to a federal court’s
jurisdiction. In order to assess the fraud claim, it is
necessary to open the doll and determine whether the
Respondents in fact violated federal securities laws or
misrepresented their duties under those federal laws
in the arbitration proceeding. It would be impossible
for any court—state or federal—to adjudicate the
action to vacate without analyzing the federal laws
contained within.
C. Review is inappropriate as the district court
had continuing jurisdiction over the action to
vacate, despite Petitioner’s forum shopping
and attempts to relitigate dismissed claims
This Court previously held that “a court with the
power to stay an action under [FAA] § 3 also has the
power to confirm any ensuing arbitration award[.]”

29
, 529
U.S. 193 (2000) (citing
, 284 U.S. 263 (1932)). The Court’s earlier
decision in
went further: “We do not
conceive it to be open to question that, where the court
has authority under the statute . . . to make an order
for arbitration, the court also has authority to confirm
the award or to set it aside for irregularity, fraud,
ultra vires, or other defect.”
, 284 U.S.
at 275–76.
referred to this
The Second Circuit in
continuing jurisdiction concept in stating that the
FAA requires a federal court to stay and not dismiss a
case that is referred to arbitration, which thereafter
confers “an independent jurisdictional basis sufficient
to permit the federal court to entertain, for example,
petitions under §§ 7 and 9–11.”
, 832 F.3d at
386 (
, 556 U.S. at 65).
This rationale was also explicitly recognized by the
Fourth Circuit in
, where the court stated:
[I]f the federal court has jurisdiction to
compel the arbitration, it also has
jurisdiction to compel the attendance of
witnesses at the arbitration under § 7,
despite the lack of any “save for”
language in that section. And the same
conclusion can be reached for
jurisdiction over motions to review
arbitration awards under §§ 10 and 11.
There is no indication that Congress
intended to allow a
court to
compel arbitration under § 4 on the
basis that the underlying claim arose
under federal law and then to require

30
the parties to go to
court to review
the arbitration’s procedures or to
enforce its awards.
, 909 F.3d at 682 (emphasis in original).
Citing to this Court’s decision in
, 284 U.S. 263, 275–76 (1932), the Fourth
Circuit thus opined that “the court that has
jurisdiction to compel arbitration under § 4 also has
jurisdiction to supervise the arbitration procedures
and to confirm, vacate, modify, and enforce the
, 909 F.3d at
resulting arbitration award.”
683;
,
294 F.3d 702, 714 (5th Cir. 2002) (Dennis, J.,
concurring) (“It is not uncommon for district courts to
compel arbitration but also retain jurisdiction
pending the arbitration for the purpose of addressing
any subsequent motions to confirm, modify, or vacate
the award.”) (additional citations omitted).12
After the district court compelled arbitration and
stayed the litigation of the claims against Ameriprise
in the REJ Suit until the conclusion of the arbitration
pursuant to FAA § 3, the district court retained
jurisdiction over the arbitration process, including
any action to confirm, vacate or modify the award. The
district court exercised this jurisdiction when it
12

Unlike here, none of the cases in the current circuit split on the
look-through question emanated from a motion to compel
arbitration under FAA § 4 followed by an action to confirm,
vacate or modify the ensuing arbitration award. While several of
the circuits opined that, in such a scenario, a federal court would
maintain jurisdiction, that situation was not squarely before
those courts. This is yet another significant distinction showing
that this case is not appropriate for review.

31
granted Ameriprise’s motion to confirm the award in
the REJ Suit. Preserving a federal court’s continuing
jurisdiction is vital from a policy perspective since the
district court had a firm understanding of the federal
issues involved in the FINRA arbitration and was in
the best position to exercise jurisdiction over any postaward motions.
While Ameriprise’s motion to confirm was under
consideration by the district court, Petitioner filed the
untimely action to vacate the arbitration award in
state court in circumvention of the district court’s
jurisdiction, and despite the obvious conflict this could
create between state and federal courts. This was the
same type of conscious “forum manipulation”
, 432 F. Supp. 2d at 651,
exhibited in
intended by Petitioner to undercut the district court’s
jurisdiction over claims originally brought there and
compelled by the district judge to arbitration. The
district judge noted this in his ruling below in stating
that “having obtained no relief in either the
arbitration or in this Court, which was Badgerow’s
chosen forum in 2017 when she first filed suit,
Badgerow moved to the state courts.” Pet’r’s App. 13a.
In its order confirming the arbitration award in the
REJ Suit, the district court considered and rejected
Petitioner’s fraud claim, finding it to be entirely
unfounded and primarily based on an irrelevant
marketing proposal from a third-party vendor with no
legal authority, any reliance on which was
unreasonable as a matter of law. Resp’t’s App. 13a–
15a. The district court thus rejected Petitioner’s
arguments and confirmed the arbitration award.
Resp’t’s App. 16a. The district court’s confirmation of
the arbitration award and dismissal of the fraud claim

32
were not appealed to the Fifth Circuit.
,
974 F.3d at 614. Thus, the confirmation of the award
became and remains final.13
The Writ is nothing more than an effort to
remediate Plaintiff’s failures to appeal the
confirmation of the arbitration award and rejection of
her fraud claim in both this action and the REJ Suit.
If avoiding forum shopping and manipulation of FAA
procedure for post-award relief were not sufficient
reasons to deny review, then there is also the palpable
threat of conflicting state and federal rulings.
If remanded, the state court would be tasked with
reviewing and ruling on a request to vacate the
arbitration award despite the federal district court’s
previous confirmation of that same award in the REJ
Suit. Since the arbitration award was confirmed by
the district court in the REJ Suit and the ruling that
Petitioner’s fraud claim was legally frivolous is final,
review by this Court would amount to an advisory
opinion on jurisdiction with no effect on the ultimate
disposition of the action to vacate.
, 577 U.S. 153, 180 (2016)
(explaining this Court’s prohibition on advisory
opinions: “[T]he court is not empowered to decide moot
questions or abstract propositions, or to declare, for
the government of future cases, principles or rules of
law which cannot affect the result as to the thing in
13

Petitioner suggests that the FINRA arbitrators’ award was
“not binding” on or enforceable by Respondents because they
were not individually named in the REJ Suit.
Writ at 9, n.2.
This position entirely ignores that Respondents
parties to
the arbitration in which the award was issued, which the district
judge noted in his June 26, 2019 order, stating “[t]he arbitration
award is confirmed as to all parties to that proceeding.” Resp’t’s
App. 16a.

33
issue in the case.”) (quoting
, 149 U.S. 308, 314 (1893)).
Remand would threaten to create a quagmire of
conflicting state and federal decisions, precise
concerns that
,
and
advised
against. Any further attempt to vacate the arbitration
award would be in derogation of the district court’s
final judgment and would force Respondents to seek
an injunction or other order enforcing the federal
, 888 F.3d 129
judgment.
(5th Cir. 2018) (the “relitigation exception” to federal
Anti-Injunction Act “allows an injunction where state
proceedings threaten to undermine a federal
judgment having preclusive effect under the ‘wellrecognized concept’ of collateral estoppel”) (citing
, 448 F.3d 825, 828 (5th Cir.
2006);
, 326
F.3d 1096 (9th Cir. 2003) (citing
, 486 U.S. 140, 147 (1988)). Such a
collateral attack on a federal court’s final judgment
confirming the arbitration award, after the same court
compelled the underlying claims to arbitration, should
not be countenanced by this Court.

34

Even if this Court were to grant certiorari, it would
not and could not affect the final judgment in the REJ
Suit— where no jurisdictional challenge was raised—
confirming the arbitration award and rejecting
Petitioner’s fraud claim. Regardless of the application
of look-through, subject matter jurisdiction existed in
this suit based on the federal questions on the face of
the state court pleadings and the district court’s
continuing jurisdiction over post-award requests for
relief. As such, review by this Court would be moot
and a waste of judicial resources.
For the foregoing reasons, the Petition for a Writ
of Certiorari should be denied.
Respectfully submitted,
EVE B. MASINTER
E. FREDRICK PREIS, JR.
MATTHEW M. MCCLUER
BREAZEALE, SACHSE &
WILSON, L.L.P.
909 Poydras St., Ste. 1500
New Orleans, LA 70112
(504) 584-5468
eve.masinter@bswllp.com
efp@bswllp.com
matthew.mccluer@bswllp.com
March 24, 2021

Appendix A:

District Court Order
and Reasons, Jan. 10, 2018 ........... 1a

Appendix B:

District Court Order
and Reasons, June 12, 2019 ........ 11a

1a

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
DENISE A. BADGEROW
VERSUS
REJ PROPERTIES, INC., ET AL.

CIVIL ACTION
NO: 17-9492
SECTION: "A"(2)

The following motions are before the Court:
filed by
Ameriprise Financial Services, Inc.;

defendant

filed by defendant REJ Properties, Inc.
d/b/a Walters, Meyer, Trosclair & Associates. Plaintiff
Denise A. Badgerow opposes the motions. The
motions, noticed for submission on December 13,
2017, are before the Court on the briefs without oral
argument.1

Plaintiff Denise Badgerow has filed this action
against REJ Properties, Inc. d/b/a Walters, Meyer,
Trosclair & Associates (“WMT”) and Ameriprise
Financial Services, Inc. WMT is domiciled in
Lafourche Parish; Ameriprise’s principal place of
business is located in Minneapolis, Minnesota.
1

Defendants have requested oral argument but the Court is not
persuaded that oral argument would be helpful.

2a
Badgerow’s complaint alleges eleven causes of action
arising out of her employment with WMT.
Ameriprise is a registered broker dealer that
offers financial products and services to customers
through several models, including through a
franchisee-based platform of independent advisors
who own and operate their own businesses, as
franchises. (Rec. Doc. 27-2, Odash decl. ¶ 3). The
principals of WMT—Gregory Walters, Thomas
Meyer, and Roy Trosclair—were independent
franchise advisors for Ameriprise during the period of
Badgerow’s employment. (
¶ 4). Ameriprise did not
have a franchise agreement with REJ Properties, Inc.
¶ 5).2
(
After completing a 90-day probationary period
with WMT, Badgerow was promoted to Associate
Financial Advisor (“AFA”) on January 1, 2014.
(Rec. Doc. 1, Complaint § 12). Her work as an AFA
was supervised by Gregory Walters, one of three
¶ 12).
directors at WMT. (
Badgerow contends that she had an oral
agreement with WMT that she would receive a base
salary of $30,000 per year plus commissions.
2

Ameriprise alludes to the rule that when considering a motion
to dismiss, the district court generally must limit itself to the
contents of the pleadings and the attachments thereto.
, 224 F.3d 496, 498-99 (5th
Cir. 2000). The declaration of Karen Odash, Senior Manager—
Legal Affairs for Ameriprise’s parent entity, is not part of the
pleadings and is neither referred to in the complaint nor central
to Badgerow’s claims.
at 499) (citing
, 987 F.2d 249, 431 (7th Cir. 1993)).
Plaintiff has not objected to any of the documents attached to
either motion to dismiss. Nonetheless, the Court remains
mindful when considering extraneous documents that discovery
is not complete. Thus, the Court includes the foregoing
information from Odash’s declaration merely as helpful
background information and not as established fact.

3a
Badgerow was not provided a written compensation
agreement. (
¶ 14). Badgerow complains that WMT
retroactively changed her compensation structure in
October 2014 after she made a large commissioned
sale. (
¶ 15). Badgerow alleges that the new
compensation structure was enforced only against her
and not against similarly situated male employees.
(
¶ 17). She also alleges that she was earning
quarterly bonuses that were half the amount of her
male counterparts. (
¶ 24).
Badgerow also alleges that she was subjected to
constant office harassment after she declined to work
as Walters’ assistant. The harassment was instigated
by Tommy Meyer, another director at WMT, and his
¶¶ 20-21). Even
team, including other females. (
though Badgerow was promoted to the role of
Financial Advisor (“FA”), Meyer determined that all
FAs would keep the title of “associate” until they
¶ 23). In
attained five years of service with WMT. (
December 2015, after complaining constantly to
Walters, Badgerow was moved to a separate office to
avoid any further distress to Meyer, segregating her
from the rest of the WMT team and putting her in an
¶ 25).
office all by herself. (
On July 26, 2016, Walters terminated Badgerow
¶ 29). According to the
after she refused to resign. (
Complaint, Walters fired Badgerow in retaliation for
speaking with Marc Cohen, a compliance officer with
¶ 29).
Ameriprise.3 (

3

The first element of a prima facie case of Title VII retaliation is
that the employee engaged in activity protected by Title VII.
, 810 F.3d 940,
945 (5th Cir. 2015) (citing
, 670
F.3d 644, 657 (5th Cir. 2012)). The Court notes from reading
Badgerow’s FINRA Arbitration Statement of Claim that Cohen
is not an EEO compliance officer but rather works for Ameriprise

4a
Badgerow filed a Charge of Discrimination against
WMT on September 8, 2016, claiming gender
discrimination and retaliation. (Rec. Doc. 27-3 at 5).
On October 6, 2016, she amended the charge to
include class allegations. (
at 8). On June 27, 2017,
the EEOC issued a dismissal and notice of rights (
at 13).
Badgerow filed the instant action and jury
demand on September 22, 2017, against WMT and
Ameriprise. Badgerow’s Complaint, which ostensibly
alleges eleven causes of action, asserts claims for
violations of Title VII (gender-based hostile work
environment and retaliation), and the Equal Pay Act,
29 U.S.C. § 206(d)(1) (disparate pay based on
gender).4 Badgerow’s third cause of action is for
as a compliance officer with respect to its Compliance Financial
Manual. (Rec. Doc. 27-2 at 2). In fact, Badgerow alleges in her
Complaint that Cohen had told her on several occasions that
neither he nor Ameriprise could help her with respect to
discrimination issues at WMT. (Complaint ¶ 27). In her
Arbitration Statement Badgerow links her termination to
reprisal based on her statements to Cohen about the payment
source of her commissions. Retaliation on this basis is not
actionable under Title VII because reporting non-compliance
with Ameriprise’s Financial Manual is not a protected Title VII
activity. To the extent that Badgerow is alleging that she was
fired in retaliation for reporting sexual discrimination to Cohen,
the question of whether this activity is “protected activity” for
purposes of Title VII is not currently before the Court.
4
These claims are also asserted under state law, Louisiana’s
Employment Discrimination Law, La. R.S. § 23:301,
Louisiana courts rely upon Title VII standards when addressing
liability for LEDL claims,
, 654 So.
2d 843 (La. App. 4th Cir. 1995), but the Louisiana legislature
chose to deviate from Title VII when defining the term
“employer.” The definition of an “employer” for purposes of an
LEDL claim is far narrower than the Title VII definition. This
Court has no doubt that Ameriprise will not satisfy the state law
definition of “employer” because there are no allegations

5a
disparate treatment based on gender and she
purports to bring that claim on behalf of a class of
similarly-situated females. For purposes of the
foregoing discrimination claims, Badgerow alleges
that WMT and Ameriprise were joint employers.
Badgerow’s eleventh cause of action is for breach of
contract against WMT.5
WMT and Ameriprise now move separately to
dismiss the case for failure to state a claim and to
compel arbitration.

The Court begins with Ameriprise’s motion to
compel arbitration.6 The threshold determination that
suggesting that Ameriprise received services from Badgerow or
paid her compensation.
La. R.S. § 23:302(2);
, 9 So. 3d 826 (La. 2009).
5
Two other causes of action fail as a matter of law. First,
Badgerow’s eighth cause of action is for a federal civil rights
conspiracy under 42 U.S.C. § 1985(3). This statute, which
requires racial animus as an element, is inapplicable to
Badgerow’s gender-based discrimination claims.
Second, Badgerow’s ninth cause of action is for conspiracy
under state law pursuant to Louisiana Civil Code article 2324.
Civil conspiracy is not an actionable claim under Louisiana law.
, 992 So. 2d 1091, 1094 (La.
App. 4th Cir. 2008) (citing
, 828 So. 2d 546 (La.
2002) (explaining that it is the tort that the conspirators agreed
to perpetrate and which they actually commit that constitutes
the actionable elements of the claim)). Article 2324 expressly
pertains to intentional torts under Louisiana law. No state law
intentional tort is alleged in this case.
6
Ameriprise’s preference is to have this Court dismiss all of
Badgerow’s claims pursuant to Rule 12(b)(6), and failing a
dismissal of all claims, to compel arbitration as to any surviving
claims. While it is perfectly acceptable to move for dismissal as
an alternative to a motion to compel arbitration, Ameriprise
cannot have it both ways without risking a waiver of its
arbitration rights. In short, since Ameriprise has moved to

6a
the Court must make is whether the parties entered
into “any arbitration agreement at all.”
, No. 1641674,
-- F.3d -- , 2017 WL 6523680 (5th Cir. Dec. 21, 2017)
(quoting
, 830
F.3d 199, 201 (5th Cir. 2016)). This inquiry is one of
pure contract formation, and it looks only at whether
the parties formed a valid agreement to arbitrate
some set of claims.
(citing
, 871 F.3d 344, 348 (5th Cir. 2017)).
It is beyond dispute that Badgerow and Ameriprise
have an agreement to arbitrate. In fact, the record
contains three agreements to arbitrate by Badgerow
in favor of Ameriprise. The first is contained in a
FINRA Form U4 that Badgerow executed in
conjunction with her employment. (Rec. Doc. 27-2).
Part 15A(5) of that document provides that Badgerow
will arbitrate any dispute, claim, or controversy that
may arise between her and her firm. The “firm”
identified in the U4 is Ameriprise Financial Services,
Inc.7
compel arbitration without agreeing to waive arbitration as to
any specific claims, this Court will not act on Ameriprise’s
merits-based arguments and instead leaves all of them for the
arbitration.
7
FINRA is “a quasi-governmental agency responsible for
overseeing the securities brokerage industry.”
, 672 F. App'x 865, 866 (10th Cir.
2016) (quoting
, 783 F.3d
763, 765 (10th Cir. 2015)). FINRA requires any person who works
in the investment banking or securities business of a FINRA
member firm to register as a securities representative (
a
stockbroker) or principal, among other categories.
, 671 F.3d 210, 211 (2nd Cir. 2012). To
register, applicants must complete a Form U4, in which they
provide detailed information about their personal, employment,
disciplinary, and financial background.

7a
The second is contained in Part 9A of an AFG
Registered Staff Agreement between Ameriprise
and Badgerow. (Rec. Doc. 26-2 at 4). Pursuant to
this arbitration provision, unless otherwise agreed
to in writing by both parties, Badgerow agreed to
arbitrate any claim that may arise between her and
Ameriprise.
The third is contained in Part 9A of an Associate
Financial Advisor Agreement between Ameriprise
and Badgerow. (Rec. Doc. 26-3 at 5). Pursuant to
this arbitration provision, unless otherwise agreed
to in writing by both parties, Badgerow agreed to
arbitrate any claim that may arise between her and
Ameriprise.
The Court is persuaded that Badgerow’s claims
against
Ameriprise
must
be
arbitrated.
Ameriprise’s motion to compel arbitration is
GRANTED in that all of Badgerow’s claims against
Ameriprise will be decided in the FINRA arbitration
(and if not FINRA, AAA)8 and shall be stayed in this
Court.9
The Court now turns to WMT’s motion which seeks
various elements of relief from the Court—dismiss
8

The AFG Registered Staff Agreement and the Associate
Financial Advisor Agreement both provide that claims not
subject to FINRA arbitration will be subject to arbitration by the
American Arbitration Association.
9
Regarding the Form U4 arbitration clause, Badgerow points out
that FINRA Rule 2263 requires that a written statement be
provided when a person is asked to sign an amended Form U4,
and that Ameriprise has not included in its exhibits any evidence
that such a statement was given to Badgerow. Badgerow’s
argument in this vein is confusing for several reasons, the most
obvious being that she does not suggest that the factual
predicates necessary to trigger Rule 2263 were satisfied. And
Badgerow cites no controlling authority for the proposition that
she can escape the otherwise valid agreement to arbitrate based
on FINRA Rule 2263.

8a
Badgerow’s class claims, strike Badgerow’s jury
demand, compel arbitration for individual claims—all
based on the second and third arbitration agreements
(the AFG Registered Staff Agreement and the
Associate Financial Advisor Agreement)
referred to above when the
court addressed Ameriprise’s motion. In other words,
unlike Ameriprise, WMT and Badgerow have not
entered into an agreement to arbitrate their claims.
WMT makes two arguments that it has standing
to enforce the Ameriprise arbitration agreements
against Badgerow. First, WMT points out that
Gregory Walters, one of its principals, signed the
agreements. While Walters did sign the agreements,
he did so in his capacity as “independent advisor,” not
as a principal of REJ Properties/WMT, the defendant
entity that actually employed Badgerow. (Rec. Doc.
262, 26-3). According to Ameriprise, and this point is
undisputed, it had no contractual relationship with an
entity called REJ Properties much less WMT, which
again is the defendant in this case.10 Neither Walters
nor any of the other WMT principals have suggested
that they should have been sued personally as
Badgerow’s employer. Nonetheless, the Ameriprise
agreements that contain the arbitration clauses could
not be clearer in that the only two parties to those
agreements are Badgerow and Ameriprise. Neither
Walters nor REJ Properties nor WMT are parties to
those agreements.
Second, WMT argues that it was a third-party
beneficiary of the AFG Registered Staff Agreement
and the Associate Financial Advisor Agreement, again
10

WMT attached a copy of the franchise agreement with
American Express Financial Advisors, Inc., presumably
Ameriprise’s predecessor, but WMT is not a party to that
agreement. (Rec. Doc. 26-4).

9a
two contracts between Ameriprise and Badgerow.
WMT argues that it agreed to indemnify Ameriprise
for employment claims in consideration of being a
beneficiary of the arbitration clauses.
This argument misses the mark because it
focuses solely on agreements between Walters, as an
independent advisor, and Ameriprise. The issue is
whether any contract to arbitrate exists between
Badgerow and REJ Properties/WMT. Simply, there
is none. And none of Badgerow’s claims against
WMT in this case are grounded on obligations
arising out of her agreements with Ameriprise.
WMT’s motion, which relies solely on terms in
agreements that Badgerow had with Ameriprise, is
DENIED in all respects.
Accordingly, and for the foregoing reasons;
the
filed by defendant Ameriprise
Financial Services, Inc.is
insofar as all of
Badgerow’s claims against Ameriprise in this action
are stayed pending arbitration;11
that the
filed by defendant REJ Properties, Inc.
d/b/a Walters, Meyer, Trosclair & Associates is
11

The Court has no concerns in essentially severing the claims
against the two defendants even though Badgerow has alleged
joint employer status between them. The primary focus of the
joint employer test is to hold accountable the entity that actually
discriminated against the plaintiff.
, Inc. 188 F.3d 606, 617 (5th Cir. 1999) (citing
, 701 F.2d 397 (5th Cir. 1983)).
Badgerow’s own factual allegations that recount the specific
treatment that she believes to be discriminatory occurred at the
hands of WMT and its staff, not Ameriprise.

10a
in all respects except that Badgerow’s eighth
(federal civil rights conspiracy under 42 U.S.C. §
1985(3))and ninth (conspiracy under state law
pursuant to Louisiana Civil Code article 2324) causes
of action are dismissed for failure to state a claim.
January 10, 2018

JAY C. ZAINEY
UNITED STATES DISTRICT JUDGE

11a

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
DENISE A. BADGEROW
VERSUS
REJ PROPERTIES, INC., ET AL.

CIVIL ACTION
NO: 17-9492
SECTION: "A"(2)

The following motion is before the Court:
filed by
Defendant Ameriprise Financial Services, Inc.
Plaintiff, Denise Badgerow, has filed an opposition to
the motion. The motion, noticed for submission on May
15, 2019, is before the Court on the briefs without oral
argument.
The claims against Ameriprise in this action had
been stayed pending arbitration. On December 28,
2018, the FINRA arbitrators issued their award which
dismissed all of Badgerow’s claims against
Ameriprise, Thomas Meyer, Ray Trosclair, and
Gregory Walters with prejudice. The latter three
individuals were the principals of WMT d/b/a REJ
Properties, Inc. and are not parties to this litigation.1

1

On January 10, 2018, the Court entered its Order and Reasons
staying all claims against Ameriprise pending arbitration. (Rec.
Doc. 47). On May 29, 2019, the Court entered an extensive opinion
addressing Badgerow’s discrimination, Equal Pay Act, and breach
of contract claims against WMT d/b/a REJ Properties, Inc. (Rec.
Doc. 159). Throughout this Order and Reasons the Court will
assume the reader’s familiarity with both of those prior opinions.

12a
Ameriprise now moves to confirm the arbitration
award, which again was issued in favor of not only
Ameriprise but also the three principals (Thomas
Meyer, Ray Trosclair, and Gregory Walters) who are
not parties to this action. In her opposition Badgerow
advises that she does not object to confirmation of the
arbitration award insofar as it applies to Ameriprise
but she opposes any effort by Ameriprise to have the
award confirmed in favor of Greg Walters, Thomas
Meyer, and Ray Trosclair. Badgerow contends that
Ameriprise lacks standing to confirm the award as to
Walters, Meyer, and Trosclair. Badgerow also
contends that the award should be vacated as to these
individuals because of fraudulent conduct during the
arbitration proceedings.2
As to the standing argument, in a prior Order and
Reasons, the Court held that REJ Properties, Inc.,
which was not a party to the arbitration proceeding,
lacked standing to seek enforcement of the award.
(Rec. Doc. 109). Contrary to what Badgerow suggests,
Ameriprise’s motion to confirm the award without
qualification is not analogous to the motion that REJ
Properties filed. Ameriprise was a party to the
arbitration and the whistleblower claim that
Badgerow is determined to pursue against the
individual defendants involves Ameriprise and one of
its employees. Ameriprise is entitled to have full
repose as to the claims that Badgerow litigated and
lost in the arbitration. To be sure, the non-party
individual defendants will benefit indirectly from the
2

Badgerow filed a petition to vacate the arbitration award on the
basis of fraud in state court. She named Walters, Meyer, and
Trosclair as defendants. These defendants removed the case to
the Eastern District of Louisiana, and it was allotted as Civil
Action 19-10353. The individual defendants have filed a motion
to confirm the award in that action and Badgerow has filed a
motion to remand.

13a
relief that Ameriprise seeks but it does not follow that
Ameriprise is seeking direct relief on their behalf.3
Badgerow’s standing argument lacks merit.
As to the fraud argument,4 Badgerow contends
that the individual defendants engaged in fraud as to
her whistleblower claim, which was brought under
state law, La. R.S. § 23:967. By way of background,
the crux of the whistleblower claim is that Greg
Walters fired Badgerow for reporting to Ameriprise’s
Marc Cohen that she had been paid commissions
directly from REJ Properties’ operating account
instead of through a third-party commission-paying
software system. Badgerow had also mentioned to
Cohen that she did not have a written compensation
agreement with WMT. Badgerow argued that this
non-compliant manner in which WMT paid
commissions and compensated her was a violation of
3

The individual defendants will be indirect beneficiaries if
Ameriprise obtains confirmation of the award because
Badgerow’s petition to vacate in Civil Action 19-10353 will surely
be met with a collateral estoppel or issue preclusion defense. In
other words, having been provided the opportunity in this action
to fully and fairly litigate the validity of the award vis à vis the
fraud allegation, Badgerow will likely be precluded from having
a second opportunity to litigate the same issue in Civil Action 1910353, whether the case remains here or ends up back in state
court.
4
Section 10 of the Federal Arbitration Act provides the exclusive
grounds for vacatur of an arbitration award: 1) where the award
was procured by corruption, fraud, or undue means; 2) where
there was evidence of partiality or corruption in the arbitrators,
3) where the arbitrators were guilty of misconduct, or 4) where
the arbitrators exceeded their powers.
, 832 F.2d 534, 544 (5th Cir. 2016) (citing 9
U.S.C. § 10(a)). The burden of proof is on the party seeking to
vacate the award, and any doubts or uncertainties must be
resolved in favor of upholding it.
, 832 F.3d at 544 (citing
, 376 F.3d 377, 385 & n.9
(5th Cir. 2004)).

14a
SEC and/or FINRA regulations and that she was fired
right after telling Cohen about it.
The individual defendants and their counsel took
the position during the arbitration that the foregoing
“non-compliance” was not a violation of any law but
rather was simply a violation of Ameriprise’s policies
and procedures.5 Badgerow claims that this line of
argument has been revealed as being fraudulent
because a non-party recently responded to discovery
that conclusively proves that the individual
defendants not only violated SEC requirements but
that they knew this during the arbitration.
Badgerow’s fraud defense to confirmation of the
award is legally frivolous. The Court begins by noting
that the “smoking gun” that Badgerow recently
received in discovery is actually a marketing or sales
document produced by a vendor that sells commission
paying software/services to companies like WMT.
(Rec. Doc. 153-1 Exhibits I & J). The whistleblower
statute requires proof of an
violation of law;
even a good faith belief that a violation occurred is
, 186
insufficient.
So. 3d 185, 187 (La. App. 1st Cir. 2015) (citing
943 So.2d 381, 386
, 787 F.3d
(La.App. 1st Cir. 2006));
h
322, 326 (5t Cir. 2015) (citing
, 165 So. 3d 176 (La. App. 5th Cir.
, 34 So. 3d 1075, 1081 (La.
2014);
App. 2nd Cir. 2010)). It is utterly absurd to suggest
that a marketing proposal that contained legal
opinions formed by marketers trying to persuade
companies to buy their product established an actual
5

Notably, in correspondence from Ameriprise’s Cohen that
predates this lawsuit, Cohen characterized the non-compliance
as failure to follow company policy and procedure not as a
violation of any law. (Rec. Doc. 153-1 Exhibit F).

15a
violation of law. Badgerow presented the facts of her
case to the arbitrators and her attorneys argued the
specific violations of the law that allegedly occurred.
Badgerow did not prove her case. It is ludicrous of
Badgerow to suggest that she failed to prove her claim
because the arbitrators did not have the benefit of the
assertions contained in a vendor’s sales pitch or that
those assertions establish that an actual violation of
the law occurred. The documents upon which
Badgerow hinges her fraud theory are irrelevant to
any element of her whistleblower claim.
In that vein, even if Badgerow had established
untoward conduct that rose to the level of fraud, she
does not tether that conduct in any way to the failure
on the merits of the whistleblower claim itself. In other
words, Badgerow cannot establish a causal nexus
between the fraud that she alleges and the basis of the
panel’s decision.
, 915 F.2d 1017, 1022 (5th Cir. 1990). Badgerow’s
opposition does not even cite the whistleblower
statute much less address the substantive
requirements of a claim.6
The whistleblower statute requires a violation of
state law not federal law. La. R.S. § 967(A)(1);
,
787 F.3d at 327. Badgerow’s whistleblower claims
were grounded on violations of SEC/FINRA
regulations which are not state law. Thus, Badgerow’s
whistleblower claim failed as a matter law without
even considering the evidence that was offered in
support of it. Furthermore, the statute grants a cause
of action against the “employer” and the individual
6

In conjunction with this ruling the Court has considered the 30
page memorandum in opposition that Badgerow is seeking leave
to file in Civil Action 19-10353. Notwithstanding its length, that
document suffers from the same deficiencies as the opposition
filed in this case.

16a
defendants were not Badgerow’s employer.7 Simply,
the reasons that Badgerow’s whistleblower claim
failed are numerous and none of those reasons involve
fraud by any of the defendants.8
Finally, Badgerow’s attempt to attack the award is
untimely. Notice of a motion to vacate, modify, or
correct an award must be served upon the adverse
party or his attorney within three months after the
award is filed or delivered. 9 U.S.C. § 12. Badgerow
did not file any such motion within the three months
limitation period. And because her allegation of fraud
is legally frivolous, she presents no basis to escape the
limitations problem.
Accordingly;
that the
filed by Defendant
Ameriprise Financial Services, Inc. is
The
arbitration award is confirmed as to all parties to that
proceeding. A final judgment will be entered in favor
of Ameriprise.
June 11, 2019
JAY C. ZAINEY
UNITED STATES DISTRICT JUDGE
7

Badgerow’s pursuit of Meyer and Trosclair on the whistleblower
claim is especially perplexing because it is undisputed that
Walters alone made the decision to terminate Badgerow. In any
case, Walters in his individual capacity was not Badgerow’s
employer.
8
Of course, aside from the problems mentioned above, the
arbitrators could very well have been unconvinced that Walters
terminated Badgerow in reprisal for telling Marc Cohen about
the manner in which WMT was paying her commissions. As the
Court explained in its Order and Reasons granting summary
judgment in favor of REJ Properties, Badgerow has no evidence
to impugn Walters’ testimony explaining the legitimate nonretaliatory reasons that he terminated her employment.

